                                   News From
                         The Office of Inspector General
                      Corporation For National And Community Service




Connecticut Woman Sentenced For Childcare Fraud
A former AmeriCorps member from Connecticut has pled guilty to defrauding the
AmeriCorps*Care childcare program of more than $10,000 following an
investigation by the Office of Inspector General (OIG), Corporation for National
and Community Service (Corporation). Bernadette Teele, of Waterbury, was
sentenced on March 26, 2004, to five years probation and ordered to repay the
Corporation $10,589, the amount of Federal funds she illegally obtained. She
was also barred for two years from receiving any Federal contracts or grants,
including student loans.
Office of Inspector General investigators found that Teele had filed false claims
for the care of her five children and had kept a large portion of the subsidy
checks that were issued to her alleged childcare provider. The investigation
further found that Teele had committed similar fraud against the State of
Connecticut’s childcare program. AmeriCorps*Care provides Federally funded
childcare subsidies to support AmeriCorps members who are serving full time to
meet community needs. Subsidies are paid directly to childcare providers. The
two-year ban on Teele’s participation in Federal contracts and grants, known as
a debarment, was recommended to the Corporation by the OIG. In their
debarment order, Corporation officials wrote that Teele’s actions were a “violation
of the terms of a public agreement so serious as to affect the integrity of the
Corporation’s AmeriCorps program.’’
